U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




                 PUBLIC

                RELEASE



        OFFICE OF THE SECRETARY
     Implementation of Commerce’s Trade
         Mission Policy Has Strengthened
         Management of the Missions, but
        More Improvements Can Be Made
        Final Inspection Report No. IPE-13934/April 2001




           Office of Inspections and Program Evaluations

APR 10, 2001

MEMORANDUM FOR:                 The Honorable Donald L. Evans
                                Secretary of Commerce

FROM:                           Johnnie E. Frazier

SUBJECT:                        Final Report: Implementation of Commerce’s Trade Mission Policy
                                Has Strengthened Management of the Missions, but More
                                Improvements Can Be Made (IPE-13934)

As a follow up to our March 14, 2001, draft report, attached is our final report on the implementation
and effectiveness of the Department’s March 1997 trade mission policy. The policy was put in place to
(1) strengthen Commerce’s management of trade missions and (2) help ensure that they are not
politicized or do not give the appearance that they are.

We found that the trade mission policy has helped to significantly improve the Department’s
management of trade missions. In particular, it has strengthened trade mission planning, the recruitment
and selection of private sector participants, and the transparency of the entire process. However, we
believe that some steps can be taken to increase the policy’s effectiveness and further improve the
Department’s management of trade missions. On page 19, we offer a number of recommendations for
such improvements.

In your response to our draft report, you indicated that you are committed to following a process of
evaluation and action to ensure that trade missions serve their intended public purpose. You also noted
that our independent assessment of the trade mission policy is an important part of this process. We
have included your comments in our final report. We have also included the comments from the Acting
Under Secretary for International Trade, given the International Trade Administration’s significant role
in support of Commerce trade missions.

We anticipate that the International Trade Administration will work closely with your office and the
Office of Business Liaison to develop an action plan to address the recommendations in our report.
Please provide the action plan to us within 90 calendar days of the date of this report. We thank your
staff for the assistance and courtesies extended to us during our review. If you have any questions or
would like to discuss this report further, please contact me at (202) 482-4661.

Attachment
APR 10, 2001


MEMORANDUM FOR:                 Timothy J. Hauser
                                Acting Under Secretary for International Trade

FROM:                           Johnnie E. Frazier

SUBJECT:                        Final Report: Implementation of Commerce’s Trade Mission Policy
                                Has Strengthened Management of the Missions, but More
                                Improvements Can Be Made (IPE-13934)

As a follow up to our March 14, 2001, draft report, attached is our final report on the implementation
and effectiveness of the Department’s March 1997 trade mission policy. The policy was put in place to
(1) strengthen Commerce’s management of trade missions and (2) help ensure that they are not
politicized or do not give the appearance that they are.

We found that the trade mission policy has helped to significantly improve the Department’s
management of trade missions. In particular, it has strengthened trade mission planning, the recruitment
and selection of private sector participants, and the transparency of the entire process. However, we
believe that some steps can be taken to increase the policy’s effectiveness and further improve the
Department’s management of trade missions. On page 19, we offer a number of recommendations for
such improvements.

In your response to our report, you indicated that our draft report was relevant, timely and constructive,
and you agreed with our findings and recommendations. You agreed to work with the Department to
make the trade mission policy more effective and useful in the future.

The report does not have any specific recommendations addressed to ITA for action, but, given ITA’s
role in support of trade missions, we assume that you will be working closely with departmental
officials to develop the action plan requested within 90 days and to implement the overall
recommendations. We thank you for your comments on our draft report and have included them as an
appendix to this report. We appreciate the cooperation and courtesies extended to us by your staff
during this review. If you have any questions, please contact me at (202) 482-4661.

Attachment
U.S. Department of Commerce                                                                                    Final Report IPE-13934

Office of Inspector General                                                                                                 April 2001




                                                    TABLE OF CONTENTS





EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 
 i

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


OBJECTIVES, SCOPE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2


FINDINGS AND CONCLUSIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


I.	 The Trade Mission Policy Has Helped Strengthen Commerce’s Management of 

    Its Trade Missions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


II. Improvements are Needed in the Policy and Its Implementation . . . . . . . . . . . . . . . . . . . . . . . . . . 7

    A. Certain aspects of the policy should be reconsidered . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

    B. Documentation of the process should be improved . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

    C. The application process could be made more efficient . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

    D. Certain policy areas need additional implementing guidelines and procedures . . . . . . . . . . . . 17


RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19


APPENDICES

A.   List of High-Level Trade Missions, April 1997-October 2000 . . . . . . . . . . . . . . . . . . . . . . . . . 20

B.   Documentation Found in Trade Mission Files During OIG Review . . . . . . . . . . . . . . . . . . . . . . . 21

C.   The Secretary of Commerce’s Response to the Draft Report . . . . . . . . . . . . . . . . . . . . . . . . . . 22

D.   ITA’s Response to the Draft Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

U.S. Department of Commerce                                                            Final Report IPE-13934

Office of Inspector General                                                                         April 2001


                                        EXECUTIVE SUMMARY


Pursuant to the authority of the Inspector General Act of 1978, as amended, the Office of Inspector
General conducted an inspection of the Department’s March 1997 trade mission policy and its
implementation. The inspection was conducted in accordance with the Quality Standards for
Inspections issued by the President’s Council on Integrity and Efficiency. Our field work was
performed from October 17, 2000, to February 6, 2001.

The Department of Commerce, primarily the Office of the Secretary and the International Trade
Administration, organizes and leads trade missions. On such trade missions, U.S. business leaders
travel overseas with the Secretary of Commerce or other senior departmental officials to meet with
foreign business leaders, foreign companies, and government officials. The missions are designed to
open markets, identify and secure export and investment opportunities for U.S. companies, showcase
American products and technology around the world, and further U.S. commercial and foreign policy
objectives.

Until 1997, the Department did not have a written policy governing trade missions or their management.
Prior to that time, the Department had been sharply criticized for allegedly using political considerations
in the recruitment and selection of private sector participants for its trade missions. In February 1997,
former Secretary William Daley suspended all trade missions for 30 days pending a review of the
policy.

On March 3, 1997, Secretary Daley unveiled a comprehensive departmental policy governing all basic
aspects of trade missions, from private sector recruitment to post-mission reports.1 Although the full
policy--as implemented--only applies to missions led by the Secretary and other Commerce officials at
the Assistant Secretary level or higher, most elements of the policy have been applied to the remaining
departmental trade missions. The two-tier review panel process to select mission participants is only
used for the high level missions. The policy is intended to:

    “ensure that all decisions regarding trade missions are based upon appropriate criteria
    related to the underlying public policy, not impermissible considerations irrelevant to the
    goals of the Commerce Department.”

The policy includes a comprehensive discussion of the trade mission authorization process, the
recruitment and selection of private sector participants for missions, and the mission costs, and
post-mission reports also are covered by criteria outlined in the policy. The policy explicitly prohibits
consideration of referrals from political parties or references to political contributions or political
activities in the recruitment and selection of mission participants.


        1
            “Statement of Policy Governing Department of Commerce Overseas Trade Missions,” March 3, 1997.

                                                        i
U.S. Department of Commerce                                                         Final Report IPE-13934

Office of Inspector General                                                                      April 2001


In general, we found that Commerce’s trade mission policy has provided a more disciplined and
consistent approach to the conduct of trade missions. It has significantly improved trade mission
planning, the participant selection process, and accountability. Clearly, the policy has improved the
transparency and objectivity of Commerce’s trade mission recruitment and selection process. While
we believe that such a policy should be continued, it is appropriate at this time for senior officials to
reassess the four-year-old policy and its implementation. We also believe that enhancements to the
policy are possible to increase its effectiveness and further improve the Department’s management of
trade missions. Specifically, our review disclosed the following:

The Policy Has Helped Strengthen
Commerce’s Management of Its Trade Missions

Our review of all 20 high-level trade missions led by either the Secretary (10) or other high-level
Commerce officials (10) from March 1997 to October 2000 indicated that many of the objectives and
requirements of the trade mission policy were met. We noted, for example, that for each of the
missions, trade mission statements were prepared that specifically defined the goals of the missions and
the criteria for participation. Recruitment efforts appeared to be broad-based, as required by the
policy. Most importantly, most private sector participant selection decisions (i.e., who went on the
missions), when well-documented, appeared to be appropriate for the trade missions and based on
objective criteria, as laid out in the trade mission statements. As we conducted our review, we
questioned a few of the decisions made by the review panels regarding participant selection. Where we
had questions, departmental officials were subsequently able to provide us with reasonable explanations
for including or excluding certain applicants. Referrals by third parties (such as trade associations,
governors, or other government officials), though permitted by the process, were few and did not seem
to sway the selection process. As required by the policy, there was a strong presumption toward the
use of commercial aircraft. We noted that commercial aircraft, as compared to Air Force planes, were
used in 17 of the 20 missions. The use of non-commercial aircraft was justified for the other trade
missions by security considerations and the unavailability of commercial flights to meet the mission
schedules (see page 5).

Improvements Are Needed in the Policy and Its Implementation

While the policy has clearly made a positive contribution to the Department’s management and conduct
of trade missions, additional improvements would further enhance the policy’s effectiveness and
efficiency. Specifically, we noted areas where the policy could be improved, as well as ways to
strengthen its implementation and application to future trade missions: (1) the policy may not be
appropriate for all “reverse” trade missions that bring foreign buyers to visit U.S. companies, (2) the
“diversity” criterion used on the trade mission application and in the selection process is ambiguous and
should be clarified, and (3) the required membership of the Tier II (second level) selection panel, as
outlined in the policy and discussed in public statements, could pose an appearance problem for the
Department (see page 7).



                                                     ii
U.S. Department of Commerce                                                        Final Report IPE-13934

Office of Inspector General                                                                     April 2001


In addition, documentation of trade missions has not been consistently maintained. On a positive note,
we found that key documents concerning trade mission planning, such as the mission statement, budget
information, and participation lists were maintained at or near 100 percent. However, important
documents, such as those concerning private sector participant recruitment and selection processes,
results of the trade missions, and mission cost reports, were present in some files but not in others. The
maintenance of appropriate documents is key to meeting the policy’s goals of demonstrating that the
trade missions are being managed in an objective, fair and more transparent manner (see page 11).

The Application Process Could Be Made More Efficient

The Department has not taken full advantage of opportunities to reduce the paper-intensive nature of
the trade mission application process. Wider use of information technology could improve the
efficiency of the process, thereby providing more time for the Department to evaluate the applicants.
We noted that the Office of the Secretary was using the Internet for requests and delivery of trade
mission applications, but ITA was not. Considering the widespread use of the Internet by ITA and the
Department to promote exporting, and the Department’s role in promoting e-commerce nationwide, we
believe that the trade mission application process and payment transactions could be more efficiently
handled electronically. Having the application data on line should also help streamline the application
review process. We believe that the Department should explore opportunities to automate as much of
the trade mission application and participation process as possible, including electronic submission of
applications, and participation agreements, and on-line payment of participation fees
(see page 15).

Certain Policy Areas Need Additional Implementing Guidelines and Procedures

The trade mission policy outlines the goals and objectives and some basic requirements for the conduct
of the missions. However, we found that the topics covered by the 17-page trade mission policy
statement run the gamut from broad policy goals and objectives to specific implementing steps.
Although the policy, as written, is clear on how to implement some steps and criteria of the trade policy,
it is less clear on others, such as documentation requirements. Hence, we believe that the policy needs
to be refined and supported by specific implementing guidelines to help ensure full and consistent
compliance. We believe that a revised policy statement, along with a set of implementing guidelines,
would help both Commerce officials and trade mission applicants to more readily understand what
information and steps are required to successfully conduct trade missions (see page 17).

We offer recommendations to address our concerns on page 19.




                                                    iii
U.S. Department of Commerce                                                        Final Report IPE-13934

Office of Inspector General                                                                     April 2001


The Secretary, in his response to our draft report, indicated that he is committed to following a process
of evaluation and action to ensure that trade missions serve their intended public purpose. He noted
that our report will be a valuable guide for ongoing efforts to improve trade missions. In addition, ITA
stated that many of our findings and conclusions will help improve the Department’s use of trade
missions. The Acting Under Secretary for International Trade specifically agreed with our
recommendations concerning the need to reevaluate whether the trade mission policy should apply to
reverse trade missions and to clarify the purpose of the policy’s diversity criterion. Furthermore, ITA
agreed to use the report to identify other areas that may require corrective action or reconsideration,
and work with the Department to make the trade mission policy more effective and useful in the future.
The Secretary’s and ITA’s comments are included in their entirety on pages 22-23.




                                                    iv
U.S. Department of Commerce                                                                Final Report IPE-13934

Office of Inspector General                                                                             April 2001


                                              INTRODUCTION


Pursuant to the authority of the Inspector General Act of 1978, as amended, the Office of Inspector
General conducted an inspection of the Department’s March 1997 trade mission policy and its
implementation. The inspection was conducted in accordance with the Quality Standards for
Inspections issued by the President’s Council on Integrity and Efficiency. Our field work was
performed from October 17, 2000, to February 6, 2001.

Inspections are special reviews that the OIG undertakes to provide agency managers with timely
information about operations, including current and foreseeable problems. One of the main goals of an
inspection is to eliminate waste in federal government programs by encouraging effective and efficient
operations. By asking questions, identifying problems, and suggesting solutions, the OIG hopes to help
managers move quickly to address problems identified during the inspection. Inspections may also
highlight effective programs or operations, particularly if they may be useful or adaptable for agency
managers or program operations elsewhere.

                           OBJECTIVES, SCOPE AND METHODOLOGY

The objective of this inspection was to determine if the Department’s trade mission policy has been
effectively implemented and whether it is meeting its goals. Specifically, we sought to determine if:

1.	     Implementation of the trade mission policy is resulting in a transparent, objective process for the
        management of trade missions, particularly for the recruitment and selection of private sector
        participants.

2.	     Officials implementing the trade mission policy are adhering to its specific requirements.

3.	     The policy is sufficiently clear and unambiguous in its language and requirements, or if some
        revisions are needed to better attain its objectives.

To accomplish this objective we reviewed the records of all 20 trade missions led by either the
Secretary (10) or other high-level Commerce officials 2 (10) from March 1997 to October 2000. By
reviewing all available records relating to each mission, we were able to draw conclusions as to whether
the Department was in compliance with the policy. We also interviewed current and former employees
from the Office of the Secretary and the International Trade Administration who had managed the trade
missions, served on selection boards, or worked with the trade mission policy and its components in
some manner.



        2
         Senior Commerce officials at the Assistant Secretary or higher level, including the Deputy Secretary,
Under Secretaries and Assistant Secretaries.

                                                         1
U.S. Department of Commerce                                                                Final Report IPE-13934

Office of Inspector General                                                                             April 2001


                                               BACKGROUND


The Department of Commerce, primarily the Office of the Secretary and the International Trade
Administration, organizes and leads trade missions. On such trade missions, U.S. business leaders
travel overseas with the Secretary of Commerce or other senior departmental officials to meet with
foreign business leaders, foreign companies, and government officials. The missions are designed to
open markets, identify and secure export and investment opportunities for U.S. companies, showcase
American products and technology around the world, and further U.S. commercial and foreign policy
objectives.

Until 1997, the Department did not have a written policy governing trade missions or their management.
Prior to that time, the Department had been sharply criticized for allegedly using political considerations
in the recruitment and selection of private sector participants for its trade missions. In February 1997,
the then Secretary, William Daley, suspended all trade missions for 30 days pending a review of the
policy.

On March 3, 1997, former Secretary Daley unveiled a comprehensive departmental policy governing
all aspects of trade missions from private sector recruitment to post-mission reports.3 Although the full
policy--as implemented--only applies to missions led by the Secretary and other Commerce officials at
the Assistant Secretary level or higher, most aspects of the policy have been applied to the remaining
departmental trade missions. From March 1997 until October 2000, the Department conducted more
than 125 trade missions of all types covered by this policy, from high-level missions led by the
Secretary to reverse trade missions.4 This report covers the high-level trade missions, which typically
involve travel to foreign countries by private sector participants and Commerce employees in which the
Department recruits and selects participants from the business community.5 The two-tier review panel
process to select mission participants, as outlined in the policy, is only used for these high-level
missions.

The policy is intended to “ensure that all decisions regarding trade missions are based upon appropriate
criteria related to the underlying public policy, not impermissible considerations irrelevant to the goals of
the Commerce Department.” A comprehensive discussion of the trade mission authorization process,
the recruitment and selection of private sector participants for missions, the mission costs, and
post-mission reports also are covered by criteria outlined in the policy. The policy expressly prohibits


         3
             “Statement of Policy Governing Department of Commerce Overseas Trade Missions,” March 3, 1997.

         4
           Reverse trade missions involve bringing foreign buyers to the United States to meet with sellers of goods
or services.

         5
          The trade mission policy also covers missions to foreign government or privately organized trade fairs or
expositions and delegations to commercially oriented international meetings, where the delegation is selected by the
Commerce Department.

                                                          2
U.S. Department of Commerce                                                            Final Report IPE-13934

Office of Inspector General                                                                         April 2001


consideration of referrals from political parties or references to political contributions or political
activities in the recruitment and selection of mission participants.

The primary elements or requirements of the trade mission policy are:

•       Preparation of a Mission Statement: Each mission statement must outline the objectives of the
        mission, the countries or regions chosen, and the rationale for the businesses or sectors that are
        to be the focus of the missions. There is a prescribed approval process for mission statements.

•       Recruitment of Private Sector Participants: Recruitment of applicants for each trade mission
        must be broadly based to maximize advance notice to as many potential private sector
        participants as feasible.




•	      Selection of Private Sector Participants: Perhaps the most critical element in the trade mission
        policy concerns setting up guidelines and a process for how applicants for trade missions are to
        be selected. Successful applicants must be chosen based on a demonstrably legitimate business


                                                       3

U.S. Department of Commerce                                                        Final Report IPE-13934

Office of Inspector General                                                                     April 2001


       purpose related to the mission and on specific, written criteria as outlined in each trade mission
       statement. Exhibit 1 on the next page summarizes the application and selection process for
       high-level trade missions in the Department.

•	     Tier Review Panels: Selection of participants is in a two-tier panel process, involving both
       career employees and political appointees who review written applications to determine the
       appropriateness of participants for inclusion on trade missions.

•	     Documentation: In order to ensure the objectivity and transparency of the process, a trade
       mission file must be kept for each mission and must be publicly available. This includes record-
       keeping of the screening and selection decisional processes.




                                                   4

U.S. Department of Commerce                                                                   Final Report IPE-13934

Office of Inspector General                                                                                April 2001



                                     FINDINGS AND CONCLUSIONS


                                                                        Table 1: High Level Trade Missions

Commerce’s trade mission policy has provided a
                                                                            April 1997 - October 2000

more disciplined and consistent approach to the
planning and conduct of trade missions. It has                            Date            Destination       Led By
significantly improved trade mission planning, the
                                                                     4/28/97- 5/2/97         India           A/S
participant selection process, and accountability.
                                                                     5/11/97-5/20/97   Argentina, Brazil,     S
Clearly, the policy has improved the transparency                                           Chile
and objectivity of Commerce’s mission recruitment
                                                                      8/3/97-8/6/97        Canada             S
and selection process. While we believe that such a
                                                                    12/6/97-12/13/97         India            S
policy should be continued, it is appropriate at this
time for senior officials to reassess the four-year-old              1/8/98-1/21/98         Turkey            S

policy and its implementation. We also believe                       4/11/98-4/18/98    Southeast Asia       U/S

enhancements to the policy are possible to increase                  5/18/98-5/22/98        Japan            A/S
its effectiveness and further improve the
                                                                     6/7/98-6/11/98    Northern Ireland       S
Department’s management of trade missions.
                                                                                          Malaysia,
                                                                     9/7/98-9/19/98     Singapore, the       U/S
I.	     The Trade Mission Policy Has Helped                                              Philippines,
                                                                                          Thailand
        Strengthen Commerce’s Management
                                                                    11/30/98-12/7/98        Africa            S
        of Its Trade Missions
                                                                     3/21/99-3/28/99   Central America       U/S

Our review of the 20 high-level trade missions                       3/25/99-3/28/99     South Korea          S

indicated that many of the objectives and                            3/28/99-4/1/99         China             S
requirements of the policy have been met.6 We                       10/9/99-10/18/99     Middle East          S
noted the following:
                                                                    11/9/99-11/13/99     MERCOSUR            A/S


•	      Trade Mission Statements were prepared                       12/2/99-12/9/99   Czech Republic,
                                                                                       Hungary, Poland
                                                                                                             A/S

        properly: Trade mission statements were
                                                                     2/13/00-2/21/00   Brazil, Uruguay,       S
        prepared for each mission in our review that                                   Argentina, Chile
        specifically defined the goals of the missions               5/8/00-5/12/00    Canada, Mexico        A/S
        and the criteria for participation. These
                                                                     6/20/00-6/23/00        APEC             A/S
        statements, most of which were posted on
                                                                     10/1/00-10/7/00        Africa           A/S
        departmental web sites, were also found in
        the individual files and were available for
        public inspection.

•       Some participant recruiting efforts were effective: Recruitment efforts appeared to be broad
        based, as required by the policy. Specifically, mission statements were published in the




        6
            See Table 1 for summary listing of the missions. Appendix A has a more detailed listing.

                                                           5
U.S. Department of Commerce                                                                Final Report IPE-13934

Office of Inspector General                                                                             April 2001



        Federal Register, as required. Moreover, when well-documented,7 efforts to cast a wide net
        to pull in potential private sector applicants were impressive. Notices were provided to
        newspapers across the country, trade publications, and relevant industry associations, and were
        published on departmental web sites.

•	      Participant decisions appeared to be objective: Most selection decisions for trade missions,
        when well-documented, appeared to be appropriate for the missions and based on objective
        criteria as laid out in the trade mission statements. We questioned few of the decisions made by
        the review panels regarding participant selection. Where we had questions, departmental
        officials were subsequently able to provide us with reasonable explanations for including or
        excluding certain applicants. However, as we discuss in Section II.B below, in many cases the
        documentation on the selection panels’ decisional processes was insufficient to independently
        confirm whether the decisions were appropriate and objective.

•	      Third party referrals did not appear to sway the selection process: Referrals by third parties
        (such as trade associations, governors, or other government officials), though permitted by the
        process, were few and did not seem to sway the selection process. In the few cases where we
        saw such referrals in the files, we noted that the applicants were accepted or not accepted
        based on reasons relating to the objective participation criteria as enumerated in the trade
        mission statements, rather than because of the referral. We found four such referrals: one
        company was invited on the trade mission, while three were not.

•	      The policy has strong support in the Department: We interviewed a number of persons who
        managed trade missions or had significant experience with the recruitment and selection
        process. They indicated that the process appeared to be free of inappropriate considerations
        for participant selection and that it was an improvement over how missions had been managed
        when there was no written policy or procedures. Individuals involved in the process indicated a
        strong level of support for the goal of maintaining scrupulous objectivity in the recruitment and
        selection of trade mission participants and avoiding any perception of favoritism or impropriety.

•	      Commercial flights were generally used: As required by the policy, there was a strong
        presumption toward the use of commercial aircraft for trade missions. We noted that
        commercial aircraft, as compared to Air Force planes, were used in 17 of the 20 missions. The
        use of non-commercial aircraft was justified for the other trade missions by security
        considerations and the unavailability of commercial flights to meet the mission schedules.

•	      Revised application form has been helpful: The trade mission application form was updated in
        1999, about 2 years after it was developed, to capture more and better information for the
        selection panels. Specifically, the Department sought and received approval from the Office of
        Management and Budget to add new questions to the application to clarify and refine the

        7
           Eleven of the 20 mission files documented recruiting efforts that went beyond publishing the mission
statement in the Federal Register.

                                                         6
U.S. Department of Commerce                                                                Final Report IPE-13934

Office of Inspector General                                                                             April 2001



         information sought from applicants.8 We believe that this has resulted in better information from
         applicants to assist in the selection process and made the process more efficient by reducing the
         need for repeated requests for information from applicants.

Implementation of the Department’s trade mission policy has significantly improved the planning and
conduct of trade missions. It has introduced more consistency, discipline, objectivity, and transparency
into the trade mission process. Accountability has been enhanced. The policy has strengthened the
trade mission management process and helps protect the Department and senior officials against
allegations of unfairness or impropriety.

II.      Improvements are Needed in the Policy and Its Implementation

While the policy has clearly made a positive contribution to the management and conduct of trade
missions, additional improvements will further enhance its effectiveness. Specifically, we noted areas
where the policy itself could be improved, as well as ways to strengthen its implementation and
application to trade missions.

A.       Certain aspects of the policy should be reconsidered

Based on our review of 4 years of experience with the trade mission policy, we believe that
improvements can be made to the policy that would enhance its effectiveness. To maximize its
effectiveness, the policy should be clear and unambiguous concerning the types of trade missions for
which it is appropriate and what requirements are placed on both applicants and the Department’s
implementing offices, and it should contribute to its stated purposes of supporting objectivity and
transparency in the process. We noted three aspects of the current policy that should be reconsidered:
1) the policy may not be appropriate for all “reverse” trade missions that bring foreign buyers to visit
U.S. companies, (2) the “diversity” criterion used on the trade mission application and in the selection

process is ambiguous and should be clarified, 

and (3) the required membership of the Tier II (second level) selection panel, as outlined in the policy

and discussed in public statements, could pose an appearance problem for the Department.





         8
            Specifically, three questions were added to the application: (1) one to solicit more information on the
business, such as date and state of formation, (2) one to collect personal information on the applicant and company
to assist in the background check/vetting process, and (3) one to request more company information, such as
brochures and literature on product lines, facilities, etc.

                                                         7
U.S. Department of Commerce                                                                  Final Report IPE-13934

Office of Inspector General                                                                               April 2001



         Policy May Not Be Appropriate for All Reverse Trade Missions

The trade mission policy applies to all trade missions, including reverse trade missions. Reverse
missions involve the recruitment of foreign business delegations by commercial officers to visit U.S.
companies that have expressed an interest in hosting foreign buyers, as compared to a standard trade
mission where the Department arranges for U.S. companies to travel outside the United States to meet
with foreign companies and government officials.9 Commerce officials provided compelling evidence
that the policy should not apply to reverse missions. They told us that the policy’s recruitment and
selection requirements had, in fact, been a factor in their decision to cancel or not pursue at least some
of these trade missions. There even appeared to be confusion on the part of some departmental
officials as to how the trade mission policy should be applied to reverse missions, and this led to aspects
of the policy being applied inappropriately (e.g., requiring a selection process to be conducted for a
local tour of a U.S. firm’s facilities).

Departmental officials indicated that many reverse missions are planned for and executed in an ad-hoc,
quick-turnaround manner, making it difficult to meet all the requirements of the trade mission policy.
They told us of instances in which foreign companies, in planning to visit the United States to attend a
trade show, have also requested that the United States and Foreign Commercial Service (US&FCS)
organize a post-trade show reverse mission. Because the foreign companies’ desire for a reverse
mission is often made known with little notice before their visit, it is sometimes difficult or impossible for
departmental officials to comply with all of the trade mission policy’s requirements, which can be
lengthy and time-consuming. With notice of only a few days to a couple of weeks, it may not be
feasible or effective, for example, to draft and publish a Federal Register notice, prepare a mission
statement, canvass widely for potential U.S. companies to host a reverse mission, and collect and
analyze companies’ applications. We were told that, in one case, these requirements, combined with
tight deadlines, caused US&FCS to forego an opportunity to fulfill a foreign business delegation’s
request for a reverse mission following the April 1999 COMDEX (one of the largest annual information
technology trade shows in the United States). In another example, departmental officials indicated that
the international travel documents for Chinese business people cannot be completed more than one
month prior to departure, due to Chinese government regulations. Frequently, travel documents are not
available until less than 20 days before the scheduled departure. ITA officials told us such short notice
would preclude a Federal Register notice, which requires 45 days to file and await responses. While
we believe that the commercial officers at overseas posts could get an earlier indication of interest for
reverse missions from many of the foreign companies planning to attend the large U.S. trade shows, we
agree that the timing on setting up some reverse missions could be tight.




         9
            Page 5 of the trade mission policy states, concerning reverse trade missions, that “...The decision whether
to organize such a mission, and selection of the United States sellers shall be made in accordance with the standards
set forth in Sections 2 and 3." Sections 2 and 3 of the policy deal with the mission authorization procedure and
recruitment/selection of participants, respectively. Cost recovery, as set forth in Section 4, and a post-mission
report, as required by Section 5, are also required for all reverse missions.

                                                           8
U.S. Department of Commerce                                                            Final Report IPE-13934

Office of Inspector General                                                                         April 2001



Aside from the time restrictions, the application process and paperwork necessary to apply for
participation in a reverse mission have apparently caused some U.S. companies to lose interest. While
we did not talk to companies to verify this, ITA officials claim that the requirement for U.S. companies
hosting a reverse mission to complete participation agreements has had the unintended effect of causing
some companies to not participate because of delays or concerns of their legal departments about the
agreements. In addition, we learned that the policy’s applicability to reverse missions was confusing to
at least some departmental officials, who attempted to get the foreign companies who were to
participate to fill out the standard trade mission application. This reportedly confused the applicants
since the application is clearly not designed for use by foreign companies.

Although some of the past problems with the application of the trade mission policy requirements to
reverse missions could be corrected with better guidance, the requirements do appear unsuited for the
ad hoc or quickly organized reverse missions where there is insufficient lead time to comply with all of
the requirements. While it is important for the Department to ensure that U.S. firms that host a reverse
mission are chosen objectively and fairly, we believe that the full scope of the policy’s planning,
recruitment, and selection steps may be unnecessarily burdensome and irrelevant for some reverse
missions. Given this unexpected outcome, we believe that the Office of the Secretary should reconsider
to what extent the policy should apply to reverse missions and, in cases where it does apply, what
additional guidance may be needed to specify its application to them.

        The Policy’s Diversity Criterion Is Vague and Should Be Reexamined

The diversity criterion, listed in the trade mission policy as one of the selection criteria for participants,
has caused confusion among some applicants who see it in the published mission statements and must
answer a question about diversity on the application itself. Our review of documentation in the trade
mission files and interviews with departmental officials indicated that not only does there appear to be
confusion among applicants about how to address this criterion, but it is unclear as to how the
information was used by selection panel members. The diversity criterion used in the application
process is vague and fails to specify the information sought from applicants, its purpose in the process,
and how selection panels are to treat the diversity information in their decision-making.

The trade mission policy includes several participation criteria, one of which is “Diversity of company
size, type, location, demographics and traditional under-representation in business.” The current trade
mission application form (question 10), says the company/participant “may provide any information that
it considers relevant to the purpose of the trade mission regarding diversity and/or traditional under-
representation in business.”

In our review of trade mission file documents, we found a wide range of responses from applicants,
indicating their confusion about how to complete this part of the form. Some companies interpreted the
question as asking whether: (1) they followed appropriate EEO practices in their company, (2) the
composition of their workforce was diverse, (3) their products/services were diverse, (4) they exported
to a diverse range of foreign markets, or (5) trade barriers prevented their access to markets, thereby
stymying their company’s attempt to diversify to different markets.

                                                       9

U.S. Department of Commerce                                                                   Final Report IPE-13934

Office of Inspector General                                                                                April 2001



Based on our interviews, it was also clear that there were divergent opinions among the panel members
on what information the diversity criterion was designed to capture and how it was to be used in making
selection decisions. We believe that, as part of a larger review of the trade policy, this part of the
policy and the trade mission application should be reassessed. At a minimum, the use of the diversity
criterion should be clarified and guidance should be provided to applicants as well as selection panel
members as to what type of information is sought from applicants and what is its appropriate use in the
selection process.

         Membership of the Tier II Panel Could Pose an Appearance Problem

We believe that the composition of the Tier II selection panel could pose an appearance problem for
the Department. The trade mission policy specifies that three of the five members of the Tier II
selection panel will be the Chief Financial Officer and Assistant Secretary for Administration, the
Assistant Secretary from the relevant Commerce operating unit managing the trade mission, 10 and the
Director of the Office of Business Liaison,11 positions that have customarily been filled by political
appointees. The remaining two members of the Tier II panel are required to be career officials, one
from ITA and one from the Department’s Office of General Counsel. While this structure does not
suggest that decisions made by the panel are necessarily subjective, or politically motivated, it seems to
contradict public statements made by some departmental officials that final selection decisions are
primarily in the hands of career officials. This composition could pose an appearance problem for the
Department because, even though most of the members of the Tier I panel are career officials, the Tier
II panel has the authority to overrule the first panel. We believe that the Tier II panel composition
should be reassessed and a determination be made as to whether the policy should be revised on this
point.


B.       Documentation of the process should be improved

The maintenance of publicly available files for each trade mission is one of the central requirements of
the trade mission policy and the primary way to demonstrate that the missions, especially the
recruitment and selection of private sector participants, are being managed in an objective, fair and
transparent manner. However, our review of the trade mission files and interviews with the project
officers revealed that records have not been consistently maintained. As shown in Appendix II, key
documents concerning trade mission planning, such as the mission statement, budget information, and
participation lists, were invariably well maintained. However, other important documents, such as those

         10
          Typically, this would be ITA’s Assistant Secretary and Director General of the U.S. and Foreign
Commercial Service, the Assistant Secretary for Trade Development, or the Assistant Secretary for Market Access
and Compliance.

         11
            The Office of Business Liaison, part of the Office of the Secretary, serves as the primary point of contact
between the Department of Commerce and the business community. Among its activities, this office organizes
Secretarial-led trade missions. The office also maintains a role in supporting non-secretarial trade mission planning
and implementation, including representation on the Tier II selection panel.

                                                          10
U.S. Department of Commerce                                                         Final Report IPE-13934

Office of Inspector General                                                                      April 2001



concerning the recruitment and selection of participants, the results of the trade missions, and mission
expense reports, were present in some files but not in others.

The policy is specific in its record-keeping requirements and stresses the importance of documentation
by requiring that a “trade mission file” be established for each mission and be made available to the
public after completion of each trip. According to the policy, each file should include a mission
statement; a summary of the means used to recruit private sector participants; for missions led by senior
Department officials, a separate dossier for each applicant containing the application and any other
written information used in the decisional process concerning the applicant’s qualifications; and a record
of the decisional process. Each file must include a post-mission report that must be filed within a month
of the conclusion of a mission. That report should contain a description of the mission, including a
schedule and a summary of the activities undertaken; an analysis of its accomplishments in comparison
to the goals set forth in the mission statement; a summary of the evaluation forms completed by private
sector participants; a list of participants; the fiscal plan or budget; and copies of related press releases
and press reports. The policy also states that “the trade mission file and the post-mission report” will be
made available to the public with redaction of information protected from disclosure under the Freedom
of Information Act (FOIA).

The maintenance of appropriate documents is key to meeting the policy’s goals. However, we found
that these guidelines are only partially being met by the Office of the Secretary and ITA.

Specifically, we found inconsistent documentation in the following areas:

•       The participant recruitment process.
•       The participant selection process.
•       The applicant vetting process.
•       An accounting of final trade mission expenses.

We also noted instances where sensitive information was inappropriately made available in a public
reading room, even though it should have been protected from disclosure under FOIA. In addition, we
had questions about whether trade mission files were made “publicly-available” in a timely and
consistent manner, as intended by the policy.

        Documentation of recruitment efforts was inconsistent

As shown in Appendix II, overall documentation for trade mission recruitment activities, in terms of
percentage, was inconsistent. Federal Register notices were found in 60 percent of the files for
Secretarial missions and 70 percent of those for non-Secretarial missions. While some files had
extensive documentation on all other publicity and recruitment efforts, other files documented little or
nothing. These documents are key to showing that the Department sought to open up participation in
the missions as widely as possible to potential private sector participants.


                                                    11

U.S. Department of Commerce                                                                   Final Report IPE-13934

Office of Inspector General                                                                                April 2001



         Documentation for the selection process was inadequate

The selection process was, for the most part, poorly documented in the trade mission files. Perhaps the
most important documentation of this process is the recruitment notices and the selection panel notes,
also known as “tier notes.” The policy clearly requires that a record of the decisional process for
choosing participants be maintained. However, only 60 percent of mission files contained some tier
notes. Most importantly, none of these tier notes were produced in a manner that allows an outside
reader of the files to easily or fully determine what factors were used in selecting the mission
participants. Without adequate tier notes, it is impossible to fully achieve the policy’s goal of ensuring
that the trade missions selection process is both transparent and objective.

We identified a number of reasons for the inadequate documentation. First, there was confusion as to
what was to be in the files or maintained for trade missions. In some cases, tier notes were
in a public reading room;12 in other cases, they were maintained by the project managers in personal
files. Some were in neither place and could not be located (if they were produced at all). In addition,
there is some question as to what constitutes an adequate record of the decisional process. During our
interviews, project officers often stated that they were not aware that they needed to document how
they reached their decisions or what was required for the files. Others stated that they had intentionally
not thoroughly documented the selection process to protect the panel members’ “thought process” from
public scrutiny, as well as the business confidentiality of companies being reviewed. These latter
concerns, however, seem to run counter to the goal of the policy, which is to provide transparency
while still protecting sensitive or proprietary information. We strongly believe that the decisional
process should be well-documented. We recommend that the policy requirement for documentation be
reemphasized and that guidance be provided to spell out the responsibility and format for each selection
panel to produce such records in a way consistent with the policy and FOIA rules.

         Documentation for vetting process was inconsistent

The trade mission policy calls for vetting of potential mission participants, following tentative selection,
to “ensure that all representations and certifications in the application are accurate and reliable.” The
policy indicates that such vetting may involve government agencies where appropriate, but it does not
specify the nature of such vetting. Nor does the policy specifically require that records be kept on the
tasking and results of the vetting process.13 While not specifically required by the trade mission policy,


         12
            The Foreign Trade Reference Room, operated by ITA, is a statistical reference room where U.S.
companies can research foreign markets for their products. The collection includes not only current U.S. government
foreign trade statistics, but also selected trade and economic statistics published by many other countries. (Also
see page 15.)

         13
            In general, during the vetting process, potential private sector participants are screened by the
Department in order to ensure that there are no known violations of export control or foreign bribery laws and
regulations, conflicts of interest, lawsuits against the Department, or other information which might indicate that a
participant is inappropriate for inclusion on a particular mission. Although documentation for vetting is not

                                                          12

U.S. Department of Commerce                                                                 Final Report IPE-13934

Office of Inspector General                                                                              April 2001



documentation of vetting requests and results was present in some trade mission files and not in others.
We found vetting documentation maintained for 20 percent of the Secretarial missions and 50 percent
of the Under Secretarial and Assistant Secretarial missions. We believe that this indicates confusion as
to what vetting should be done and what documentation should be maintained. While such documents
and notes may be exempt from public release, documentation of the name check process is critical to
ensuring that the vetting process is occurring and is eliminating inappropriate applicants. In addition,
since documentation of the vetting process is not now required as part of the official files, we are
recommending that the Office of the Secretary consider requiring the inclusion of such records in the
files.

         Documentation for final expense reports was inconsistent

Final expense reports were present in 3 of the 10 trade missions led by the Under Secretary or an
Assistant Secretary, and in none of the files for the 10 Secretarial led missions. Although final expense
reports are not required by the trade mission policy, we believe, as do many of the project officers
interviewed, that maintaining the expense reports in the mission files will provider greater financial
accountability for the missions. The trade mission policy, on page 15, states that “Government-wide
regulations generally require that all costs incurred directly by the Department on behalf of trade mission
participants must be recovered in full from the participants.” In addition, a memo to ITA from the Chief
Financial Officer and Assistant Secretary of Administration, dated February 5, 1997, provides details
concerning trade missions and the requirement to operate then on a full cost recovery basis. In order to
determine if the missions are operating under full cost recovery, a final expense report, or “cost report,”
is essential in order to compare costs versus the authorized budget. Furthermore, the transparency of
the process would be better served if the Department, by providing expense reports, could show that
the fee charged private sector participants in a trade mission was fair and calculated appropriately
according to the mission’s budget. Without such documentation present in the mission files, it was
impossible for us to determine whether the Department is meeting its goals concerning cost-recovery
and the calculation of appropriate participation fees.

Since these expense reports are not required as part of the official trade mission files under the current
policy, yet are very important, we are recommending that the Office of the Secretary require their
inclusion in the trade mission files and provide guidance as to how actual costs should be matched to
mission budgets.




specifically required by the policy, the requirement to conduct thorough vetting for all meetings with the Secretary
and all Secretarial-led trade missions was introduced via a memorandum from the Office of the Secretary, dated
February 25, 1997. Lists of potential trade mission participants are required to be circulated to Commerce bureaus for
name checks. The vetting of recommended applicants is conducted after the initial screening by the Tier I review
group. That information is then considered by the Tier II panel before final invitations are made.

                                                         13
U.S. Department of Commerce                                                          Final Report IPE-13934

Office of Inspector General                                                                       April 2001



        Participant evaluations inconsistently documented

As part of the post-mission report, the trade mission policy emphasizes that mission participants “will be
requested to complete a mission evaluation form at the conclusion of the mission” and that a summary
of these evaluations will be made part of the post-mission report, which is available for public
inspection. We noticed variance in this as well. Although the majority of files contained post-mission
reports as required, we noted that only 50 percent of the missions led by ITA contained a summary of
the evaluations, as required, while 80 percent of the files for those missions led by the Office of the
Secretary had the required summary.

        Not all trade mission documents are easily available for public review

The trade mission policy emphasizes that the trade mission files, “will be made available to the public,”
with redaction of commercially sensitive information provided by applicants and other types of
information exempt from disclosure under the FOIA. The mission files are supposed to be made
available to the public upon the completion of the trip, and should include the post-mission reports,
which must be filed within a month of the conclusion of the mission. However, we noted that many of
the files were not available for public inspection on a timely basis, as required by the policy.

While post-mission reports were prepared for all 20 high-level trade missions, only 1 of them was
produced within 30 days of the mission’s end, as the policy requires. The average time to complete a
post-mission report was more than 7.5 months, including 3 not produced for one year or more after
completion of the mission.

We found that the contents of the files were generally available to the public, with some exceptions.
Mission files for Secretary-led missions are maintained in a centralized file cabinet, currently located in
the Office of Business Liaison, but are not available for public inspection without first contacting the
office. Files for ITA-led missions of all levels are made available in ITA’s Foreign Trade Reference
Room on a designated shelf. The reference room maintains an index of all the missions, specifying the
trip dates, title of missions, and the project officers with their telephone numbers. The public reading
room is accessible to the public during normal business hours without an appointment. Although the
reference room maintains a login sheet for all visitors as well as for Commerce employees, there is no
way of knowing how many visitors came for the mission reports because visitors are not required to
specify the purpose of their visits.

While all 20 high-level missions had files maintained in the reference room, we noted that the files often
were incomplete. Certain files were sometimes maintained in the office of each mission’s ITA project
manager. While the policy does not require centralized files or a public reading room, the current
decentralized file structure could be misleading. If a member of the public visits the reference room to
examine trade mission files, there would be no way of knowing whether those files were comprehensive
or whether other important files related to the trade mission were located elsewhere in the building. The
visitor could contact the project officer listed on the index to find out if there are more mission file
documents not placed in the reference room. However, in some instances, the project officer listed as

                                                     14

U.S. Department of Commerce                                                          Final Report IPE-13934

Office of Inspector General                                                                       April 2001



being assigned to a particular mission is no longer available in the building and the index has not been
updated with the new contact person, thereby creating an obstacle for a visitor wanting more
information on a trade mission. This would seem to violate at least the spirit of “public availability” of
the trade mission policy. In addition, if an ITA or Office of the Secretary staff member wished to
review the file for a past trade mission and in planning a future mission, it would be difficult to locate
complete files for some missions to use as reference.

We also noted instances in which FOIA-protected documents were available in the public reading
room files. In several files, we found sensitive information that should not have been available to the
public, including trade mission applicants’ visa card numbers, and passport numbers, and negative
comments about applicants that were gathered during the vetting process. Given the variance of what
was in the files and available for immediate inspection by the public or others, this is another example
where it would be helpful to have some concrete guidelines as to what should be in the files and where
they should be located. There also needs to be a better quality control over what is placed in the files,
to ensure that information protected by FOIA is not in the public reading room files or otherwise
released inappropriately.

C.      The application process could be made more efficient

We believe that the Department has not taken full advantage of opportunities to address the
paper-intensive nature of the trade mission application process. Wider use of information technology
could improve the efficiency of the process, thereby providing more time for the Department to evaluate
the applicants. We noted that the Office of the Secretary had used the Internet for requests and
delivery of trade mission applications, but ITA had not. Considering the widespread use of the Internet
by ITA and the Department to promote exporting, and the Department’s role in promoting
e-commerce nationwide, we believe that the trade mission application process could be more efficient,
at least in part, if handled electronically.

Departmental officials told us that the current process for providing and accepting trade mission
applications from respondents was time-consuming, thereby allowing less time for other time-critical
management requirements involved in organizing trade missions. In response to a recruitment notice for
a trade mission, a potential private sector participant must fax, phone or mail in a request for a trade
mission application form, which the company would then complete and fax or mail back to the project
officer. After the selection process has been completed, the successful applicant must complete a
participation agreement and submit it, with a check for the application fee, to the project officer. This
back-and-forth process appears to be inefficient and time-consuming, as well as unnecessarily
burdensome to the Department and potential participants.

For one Secretarial-led mission to the Middle East in October 1999, the Office of the Secretary
electronically disseminated the trade mission applications via the Internet. We were told that after this
mission, the Office of Secretary did not continue to disseminate applications on line due to a sudden
departure of a staff member who was responsible for implementing and maintaining the web site which
offered the application. By having the application available on the Internet, an applicant was able to

                                                     15

U.S. Department of Commerce                                                                 Final Report IPE-13934

Office of Inspector General                                                                              April 2001



simply download the trade mission application rather than having to request it via the phone or fax.
Unfortunately, the application process did not fully use available technology because applicants still had
to return the completed applications to the project officers by fax or mail.

ITA has not made trade mission applications available via the Internet, although it has recently started to
provide the participation agreement14 electronically. The participation agreement is required from those
who have been selected for participation but it must also be mailed back because the agreement
requires a signature. The Department’s CIO office is working with departmental and other federal
officials to implement an electronic signature program by the end of 2001. At that point, on-line
execution of participation agreements should be considered for trade missions.

Trade mission project officers that we interviewed agreed that electronic applications would ease the
administrative burden and should enable the Department to widen the reach of its recruitment efforts by
utilizing the Internet. Having the application and participation agreement on the Internet would be an
excellent use of available technology that will save ITA and its customers time. We are recommending
that both the Office of Secretary and ITA make the forms available on line and allow applicants to fill
them out on line, thereby reducing or eliminating the need for mail or fax. Current encryption
technology should provide protection to allow the collection of commercial and personal information
from the applicants via the Internet. Furthermore, adopting information technology solutions in this
process, wherever possible, can help protect personal and business proprietary information by having
the information in a central database with the “fields” for collecting personal information coded for
privacy protection. Such information from the database files could then be more easily sorted and
redacted for release to the public upon request. In addition, the application review and selection
process should be streamlined by receiving the application information on line and having it
automatically linked to a database. A database system would also allow the Department to track and
centrally maintain all applications, further improving record retention needs.

D.       Certain policy areas need additional implementing guidelines and procedures

The trade mission policy was put in place in 1997 to bring structure and accountability to the
Department’s conduct of trade missions. The policy laid out clear goals and objectives and basic
requirements for the conduct of the missions. After four years, the policy needs to be refined and
supported by specific implementing guidelines to help ensure the intended compliance.

We found that the topics covered by the policy statement run the gamut from broad policy goals and
objectives to specific implementing steps. Although the policy, as written, is clear on how to implement
some steps and criteria, it is less clear on others. For example, a central part of the policy concerns the
maintenance and availability of documentation related to trade missions, in order to demonstrate the


         14
             The participation agreement is an OMB-approved form through which individual U.S. firms agree to
participate in ITA’s trade promotion program. The agreement identifies the products and/or services the business
intends to sell or promote and records the required fee for participation in an ITA program. The agreement requires a
signature from the applicant.

                                                         16
U.S. Department of Commerce                                                        Final Report IPE-13934

Office of Inspector General                                                                     April 2001



objectivity and transparency of the recruitment/selection process. However, as we noted above, there
is a lack of agreement on what and how documentation should be maintained to meet this goal.

The lack of specific, implementing guidelines has had a number of results. For example, there was a
wide variance in how trade mission management steps were conducted and documented. In addition,
we found two different sets of implementing guidelines: one drafted by a trade mission project officer
for a specific mission, and a second drafted by an ITA industry specialist as generic guidance for the
operating unit. These guidelines, however, were produced on an ad hoc basis and had not been shared
throughout the organization or used uniformly nor were they comprehensive. Clearly, there is a need
for specific guidelines to clarify how the trade mission policy should be implemented. At a minimum,
guidelines are needed to specify the steps that should be taken to properly handle the planning,
recruitment and selection processes and actual conduct of the trade missions. The guidelines should
spell out the officials or offices that are responsible for each aspect of the process. They should also
provide very specific guidelines for the documentation of all aspects of the trade mission process.

We believe that a revised policy statement, along with a set of implementing guidelines, would help both
Commerce officials and trade mission applicants to more easily understand what information and steps
are required in the trade mission recruitment and selection process.



The Secretary, in his response to our draft report, indicated that he is committed to following a process
of evaluation and action to ensure that trade missions serve their intended public purpose. He noted
that our report will be a valuable guide for ongoing efforts to improve trade missions. In addition, ITA
stated that many of our findings and conclusions will help improve the Department’s use of trade
missions. The Acting Under Secretary for International Trade specifically agreed with our
recommendations concerning the need to reevaluate whether the trade mission policy should apply to
reverse trade missions and to clarify the purpose of the policy’s diversity criterion. Furthermore, ITA
agreed to use the report to identify other areas that may require corrective action or reconsideration,
and work with the Department to make the trade mission policy more effective and useful in the future.
The Secretary’s and ITA’s comments are included in their entirety on pages 22-23.




                                                   17

U.S. Department of Commerce                                                        Final Report IPE-13934

Office of Inspector General                                                                     April 2001



                                      RECOMMENDATIONS

We recommend that the Secretary of Commerce ensure that the following actions are taken:

1.	    Consider revising the trade mission policy by:

       a.	     Determining whether the full scope of the policy should apply to all reverse trade
               missions (see page 8).

       b.	     Clarifying the purpose of the diversity criterion, what information will be sought from
               applicants, and how the selection panels should consider the applicants’ responses to
               the diversity question in their decision-making (see page 9).

       c.	     Re-examining the policy’s requirement regarding the membership of the Tier II selection
               panel (see page 10).

2.	    Develop implementing guidelines to accompany a revised trade mission policy that, at a
       minimum, would describe:

       a.	     Specific steps that should be taken to properly handle the planning, recruitment, and
               selection processes and actual conduct of the trade missions (see page 17).

       b.	     Officials to be involved in the trade mission process and their responsibilities
               (see page 17).

       c.	     Necessary documentation for each step of the trade mission process, who is
               responsible for its production and how, what and where records will be kept in mission
               files. This should include specific guidelines as to how the selection decisional process
               should be documented, what format should be used, what steps should be taken to
               make it publicly available, what quality control measures should be taken to ensure that
               sensitive information will be adequately protected under FOIA, and whether to include
               vetting results and final expense reports for each trade mission in the official files (see
               page 14).

       b.	     The nature of the vetting process, and what records should be kept on the tracking and
               results of the process (see page 13).

       e.	     Necessary documentation of budgeted and actual costs of each trade mission
               (see page 13).

3.	    Develop and implement electronic application procedures to streamline the trade mission
       application and review process (see page 15).


                                                   18

U.S. Department of Commerce                                                                                Final Report IPE-13934

Office of Inspector General                                                                                             April 2001



                                       Appendix A

     Trade Missions: Led by Assistant Secretaries or Higher-Level Commerce Officials

                                April 1997 - October 2000



                       Trade Mission                                    Dates                           Led By
 1. India Power Renovation & Modernization Trade Mission             4/28/97-5/2/97    ITA Assistant Secretary for Trade Development

 2. Secretarial Trade Mission to Argentina, Brazil and Chile         5/11/97-5/20/97               Secretary of Commerce

 3. Secretarial Business Development Mission to Canada                8/3/97-8/6/97                Secretary of Commerce

 4. Secretarial Trade Mission to India                              12/6/97-12/13/97               Secretary of Commerce

 5. Secretarial Trade Mission to Turkey                              1/8/98-1/21/98                Secretary of Commerce

 6. Trade Mission to Southeast Asia                                  4/11/98-4/18/98       Under Secretary for International Trade

 7. U.S. Power Equipment and Services Trade Mission to Japan         5/18/98-5/22/98     Acting ITA Assistant Secretary and Director
                                                                                                    General of US&FCS

 8. Secretarial Trade Mission to Northern Ireland                    6/7/98-6/11/98                Secretary of Commerce

 9. Trade Mission to Malaysia, Singapore, the Philippines, and       9/7/98-9/19/98        Under Secretary for International Trade
    Thailand

 10. Secretarial Trade Mission to Africa                            11/30/98-12/7/98               Secretary of Commerce

 11. Business Development Mission to Central America                 3/21/99-3/28/99       Under Secretary for International Trade

 12. Secretarial Trade Mission to South Korea                        3/25/99-3/28/99               Secretary of Commerce

 13. Secretarial Trade Mission to China                              3/28/99-4/1/99                Secretary of Commerce

 14. Secretarial Business Development Mission to the Middle East    10/9/99-10/18/99               Secretary of Commerce

 15. Business Development Mission for Women-Owned/Managed           11/9/99-11/13/99   ITA Assistant Secretary and Director General of
     Businesses to MERCOSUR                                                                               US&FCS

 16. Energy Trade Mission to the Czech Republic, Hungary, and        12/2/99-12/9/99   ITA Assistant Secretary for Trade Development
     Poland

 17. Secretarial Business Development Mission to Brazil, Uruguay,    2/13/00-2/21/00               Secretary of Commerce
    Argentina and Chile

 18. Global Diversity NAFTA Mission to Canada and Mexico             5/8/00-5/12/00      Acting ITA Assistant Secretary and Director
                                                                                                    General of US&FCS

 19. Asia-Pacific Economic Cooperation (APEC) Small and Medium­      6/20/00-6/23/00   ITA Assistant Secretary for Trade Development
     Sized Enterprises (SME) Ministerial Mission to Brunei
     Darussalam

 20. Women in Business Development Trade Mission to Africa           10/1/00-10/7/00     Acting ITA Assistant Secretary and Director
                                                                                                    General of US&FCS




                                                                    19

U.S. Department of Commerce                                                                          Final Report IPE-13934

Office of Inspector General                                                                                       April 2001



                                        Appendix B

                Documentation Found in Trade Mission Files During OIG Review





                                                              Percent of Files Containing Documentation



                      Items Found in Files                    Office of Secretary-            ITA-Maintained
                                                               Maintained Files                   Files

            Mission Statement                                         100%                          100%

            Federal Register Notice                                     60                           70

            Other Recruitment Information                               40                           70

            Participant List                                           100                           90

            Trade Mission Applications                                 100                           100

            Tier Notes*                                                 60                           60

            Vetting Information**                                       20                           50

            Budget Information                                         100                           100

            Final Expense Report                                        0                            30

            Post-Mission Report                                         80                           70

            Participant Evaluations or Summary                          80                           50
           *None of the tier notes found in the files were produced in a manner that allows an outside reader of
           the files to easily or fully determine what factors were used in selecting the mission participants.

           **The trade mission policy calls for vetting or review of the representations and certifications of
           applicants tentatively selected for missions led by senior Commerce officials to ensure that they are
           accurate and reliable. While the documentation of either the requests for vetting or the results is not
           required to be kept in the official files, this information was found in some of the official files.




                                                             20

